No.

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2021

ELIJAH VINES,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

PETITION FOR WRIT OF CERTIORARI
AND APPENDIX TO PETITION

Counsel of Record:
Rosen and Holzman
ATTN: Mark S. Rosen
400 W. Moreland Blvd., Ste. C
Waukesha, WI 53188
(262) 544-5804
Email: roseholz@sbcglobal.net

QUESTIONS PRESENTED
This Petition presents two separate Issues that each meet the
requirements for Supreme Court Review.

I.

The

Seventh

Circuit

has

recently

indicated,

in its

Decision in this present matter, that Defendant’s girlfriend who
had possessed Defendant’s Iphone had actual and apparent authority
to turn that IPhone over to law enforcement for analysis. This,
when Defendant had specifically denied her password access to that
phone. The evidence had been uncontroverted that Defendant had
refused her the password to utilize the phone. He had been in
custody at the time of the seizure. During this custody, there had
been jail phone calls between the Defendant and the girlfriend,
that

law

enforcement

had

been

aware

of,

in

which

he

had

specifically indicated that he would not provide her with the
password. The girlfriend had told law enforcement at the time of
the seizure that she did not have the password, and that if she had
entered the wrong password two or more times, then the phone would
be wiped out of all of its data.
Nevertheless, the Seventh Circuit had cited a Seventh Circuit
case, U.S. vs. James, 571 F.3d 707 (7th Cir. 2009) that had
indicated

that

the

mother

of

James

had

apparent

and

actual

authority to seize his safe. The Court had indicated that James had
not provided any limits on his mother’s access to that safe. The
Court

had

relied

exclusively

on

this

case

to

conclude

that

Defendant’s girlfriend in the present matter had consent to turn
1

Defendant’s Iphone over to the police. However, in James, unlike
here, James’ mother had the combination to that safe.
Furthermore, this present Seventh Circuit Decision is in
conflict with case law from other Circuits that, under essentially
the same circumstances as presented here, the third party possessor
of a computer does not have apparent or actual authority over the
item. This, when that third party possessor has been denied access
to the password to utilize that computer. These other Circuits are
the Fourth and Tenth Circuits. Both of those other Circuits had
concluded that, in such situations, that third party does not have
consent to either the search, or the seizure, of that computer.
Both of these Circuits had compared the situation to that of a
locked

footlocker/suitcase/briefcase.

The

Fourth

Circuit

had

indicated that, by using a password, owners affirmatively intend to
exclude others from their personal files. Those owners also,
because they conceal their passwords from others, cannot be said to
assume

the

risk

seize/search
expectation
computers

that

those
of

are

third

files.

privacy

in

repositories

parties
Those

password
for

would

owners

permit
have

protected

private

a

others

legitimate

files.

information

to

Further,
that

the

computer’s owner does not intend to share with others. A password
is identical to a lock on a footlocker/briefcase/suitcase. Such a
physically locked item conveys a subjective expectation of privacy.
Third party consent in such items must be examined in the officers’
knowledge about password protection as an indication of whether a
computer is “locked” in the way that a footlocker would be.
2

Here, there is no reason why Defendant’s password protected
Iphone must have any different analysis with respect to third party
consent than computers. Clearly, based upon law enforcement’s need
to obtain Defendant’s Iphone, Iphones are the repository of private
information.

Iphones,

such

as

Defendant’s

IPhone,

are

often

password protected. Generally, such cell phones provide the owner
with such password protection capability. Accordingly, this present
situation should be treated identically to that of a password
protected computer. Hence, in the present situation, the Circuits
are in conflict concerning this standard of third party consent as
to password protected phones. Clearly, the Seventh Circuit’s ruling
in its Decision in this matter conflicts with that of both the
Fourth and Tenth Circuits. This raises a question of law which has
never been considered by the United States Supreme Court.
As

indicated,

the

Seventh

Circuit

had

concluded

that

Defendant’s girlfriend had third party consent to turn Defendant’s
Iphone over to the police. This, even when she did not have access
to the password, Defendant had refused her such access, and law
enforcement had known about such refusal at the time of seizure.
However, as discussed, other Circuits are aligned contrarily with,
and opposite to, the Seventh Circuit.
Accordingly, the question presented for review is:
WHETHER A THIRD PARTY POSSESSES AUTHORITY TO CONSENT TO
THE SEIZURE OF ANOTHER’S CELL PHONE WHEN THAT PHONE IS
PASSWORD PROTECTED, THE OWNER OF THAT PHONE HAS DENIED
THE PASSWORD INFORMATION TO THAT THIRD PARTY, AND LAW
ENFORCEMENT KNOWS OF THAT DENIAL AT THE TIME OF THE
SEIZURE.

3

II.

The Seventh Circuit has indicated in its recent Decision

in this matter that an expert on sex trafficking, Special Agent
James Hardie, would testify that victims of such trafficking often
initially lie to law enforcement. The Seventh Circuit had indicated
that this expert could testify as to the credibility of victims of
sex

trafficking.

The

Seventh

Circuit

had

indicated

that

his

testimony that victims would often be unwilling to disclose all
details from the start. True, the Seventh Circuit had indicated
that the trial court had not allowed Hardie to testify as to the
specific victim involved in this matter. However, contrary to the
Circuit, there had only been one sex trafficking victim involved in
this case. Hence, Hardie’s testimony had clearly been provided to
materially bolster her testimony and to inform the jury that it
should disregard her history of lying and solely believe her in
court testimony.
Here, contrary to the Seventh Circuit, the Eighth Circuit has
specifically indicated that credibility determinations are uniquely
within the province of the trier of fact, and that one witness
cannot comment as to the credibility of another witness. One such
Eighth Circuit case has ruled that, even under the guise of
“expertise,” an expert on child sex abuse cannot testify as to the
credibility of an alleged sex abuse victim. The Government in that
case had argued that this expert could help in assessing the
credibility of a child witness. This, due to the expert’s expertise
in children, and in particular how sexually abused children think
and act. However, the Eighth Circuit had rejected this argument,
4

calling such testimony as putting “...an impressively qualified
expert’s stamp of truthfulness on a witness’s story.” This Eighth
Circuit case had cited case law from other Circuits, such as the
Ninth, Tenth, and Third. Accordingly, in the present situation, the
Circuits are in conflict concerning this standard of an expert
witness testifying as to the credibility of other witnesses.
Clearly, the Seventh Circuit’s ruling in its Decision in this
matter conflicts with that of the previously cited other Circuits.
This raises a question of law, which has never been considered by
the United States Supreme Court.
Accordingly, the question presented for review is:
WHETHER AN EXPERT MIGHT TESTIFY AS TO THE CREDIBILITY OF
A CHILD SEX TRAFFICKING WITNESS, EVEN UNDER THE GUISE OF
“GENERAL EXPERTISE TESTIMONY,” WHEN THAT TESTIMONY
CLEARLY RELATES TO THE TESTIMONY OF THAT CHILD WITNESS.

5

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED........................................ 1
TABLE AUTHORITIES.......................................... 7
OPINION BELOW.............................................. 9
JURISDICTION............................................... 9
STATEMENT OF THE CASE...................................... 9
REASONS FOR GRANTING THE PETITION.......................... 21
I.

CONFLICTS REGARDING THE APPROPRIATE STANDARD FOR
DETERMINING A THIRD PARTY’S APPARENT AUTHORITY TO CONSENT
TO THE SEIZURE OF ANOTHER’S PASSWORD PROTECTED CELL
PHONE, WHEN THE OWNER OF THAT PHONE HAS AFFIRMATIVELY
DENIED THAT PASSWORD INFORMATION TO THAT THIRD PARTY,
AND LAW ENFORCEMENT ARE AWARE OF THIS DENIAL AT THE
TIME OF SEIZURE, ARE TO BE RESOLVED BY THIS SUPREME
COURT................................................. 21
The Seventh Circuit’s Decision in this Present Case
is in Conflict with Holdings of Other Circuits... 21

II.

CONFLICTS FOR DETERMINING WHEN AN EXPERT CAN TESTIFY
AS TO THE CREDIBILITY OF A CLEARLY DETERMINED AND IDENTIFIED
SEX TRAFFICKING/ABUSE VICTIM WITNESS, ARE TO BE DETERMINED
BY THIS SUPREME COURT................................. 25
The Seventh Circuit’s Decision in this Present Case
is in Conflict with Holdings of Other Circuits... 25

CONCLUSION................................................. 14
Index to Appendix

6

TABLE OF AUTHORITIES
Page
Cases Cited
Trulock vs. Freeh, 275 F.3d 391 (4th Cir. 2001)............ 23-24
U.S. vs. Andrus, 483 F.3d 711 (10th Cir. 2007).............

23-24

U.S. vs. Awkard, 597 F.2d 667, 671 (9th Cir. 1979), cert. den.,
444 U.S. 885, 62 L.Ed.2d 116, 100 S.Ct. 179 and 444 U.S.
969, 100 S.Ct. 460, 62 L.Ed.2d 383 (1979)............ 27
U.S. vs. Azure, 801 F.2d 336 (8th Cir. 1986)............... 27-28
U.S. vs. Barnard, 490 F.2d 907 (9th Cir. 1973), cert den.
416 U.S. 959, 40 L.Ed.2d 310, 94 S.Ct. 1976 (1974)...

27

U.S. vs. Buckner, 473 F.3d 551 (4th Cir. 2007)............. 23-24
U.S. vs. Geddes, 844 F.3d 983 (8th Cir. 2017).............. 27-28
U.S. vs. James, 571 F.3d 707 (7th Cir. 2009)...............

22

U.S. vs. Samara, 643 F.2d 701 (10th Cir. 1981), cert. den. 454
U.S. 829, 70 L.Ed.2d 104, 102 S.Ct. 122 (1981)....... 27-28
U.S. vs. Ward, 169 F.2d 460 (3rd Cir. 1948)................ 27-28

7

No.

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2021

ELIJAH VINES,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

The Petitioner, Elijah Vines, respectfully prays that a Writ
of Certiorari issue to review the decision of the United States
Court of Appeals for the Seventh Circuit rendered August 13, 2021.

8

OPINION BELOW
The Decision and Order of the United States Court of Appeals
for the Seventh Circuit has not been published. It is printed in
the Appendix. (A 1-20).
The

relevant

portions

of

the

record,

to

consist

of

the

District Court’s oral and written Decisions before the United
States District Court for the Southern District of Indiana, are
printed in the Appendix (A 21-36).

JURISDICTION
Petitioner seeks review of a Decision and Order of the United
States Court of Appeals for the Seventh Circuit entered August 13,
2021. That Decision and Order affirmed the final Judgment of
Conviction imposed and entered by the United States District Court
for the Southern District of Indiana on July 3, 2019.
Jurisdiction of the United States Supreme Court to review the
decision and Order of the Seventh Circuit is derived from 28 U.S.C.
1254(1).

STATEMENT OF THE CASE
Defendant Elijah Vines was originally charged in a six Count
Indictment dated August 9, 2017. Defendant was charged along with
codefendants Kevin Baker and Shaquan Meeks. The Indictment charged
Defendant with the first four of the six Counts: Count One,
beginning on or about August 20, 2016 and on or about October 6,
2016, within the Southern District of Indiana and elsewhere, in and
9

affecting

interstate

commerce,

knowingly

recruited,

enticed,

harbored, transported, provided, obtained, advertised, maintained,
patronized, and solicited, by any means, Minor Victim 1, knowing
and in reckless disregard of the fact that Minor Victim 1 had not
attained the age of 18 years and that Minor Victim 1 would be
caused to engage in a commercial sex act and Defendant had a
reasonable opportunity to observe Minor Victim 1 in violation of
Title 18, U.S.C. 1591(a)(1) and (b)(2) and c; Count Two, beginning
on or about August 30, 2016 and October 6, 2016, within the
Southern District of Indiana and elsewhere, did knowingly benefit,
financially and by receiving anything of value, from participation
in a venture which, in or affecting interstate commerce, knowingly
recruited

enticed,

harbored,

transported,

provided,

obtained,

advertised, maintained, patronized, and solicited, by any means,
Minor Victim 1, knowing and in reckless disregard of the fact that
Minor Victim 1 had not attained the age of 18 years and that Minor
Victim 1 would be caused to engage in a commercial sex act in
violation of Title 18, U.S.C. 1591(a)(2) and (b)(2); Count Three,
on or about September 10, 2016 and on or about September 22, 2016,
did knowingly transport Minor Victim 1, and individual who had not
attained the age of 18 years in interstate or foreign commerce,
with the intent that Minor Victim 1 engage in prostitution, and in
any sexual activity for which any person can be charged with a a
criminal offense, in violation of Title 18, U.S.C. 2423(a); Count
Four, beginning on or about August 31, 2016 and continuing until or
about July 15, 2017, in Indianapolis, in the Southern District of
10

Indiana and elsewhere, Defendant did use and cause the use of any
facility in interstate or foreign commerce, with the intent to
promote,

carry

on,

manage

and

establish

and

facilitate

the

promotion, management, establishment, and carrying on an unlawful
activity, specifically promoting prostitution and thereafter, did
knowingly

perform

or

attempt

to

perform

an

act

constituting

Promoting Prostitution, by receiving money or other property from
a prostitute, without lawful consideration, knowing it was earned
in whole or in part from prostitution, and having control over the
use of a place, knowingly permitted another person to use the place
for prostitution, and did knowingly offer or agree to procure a
person for another person for the purpose of prostitution, in
violation of Title 18, U.S.C. 1952(a)(3).
On

September

11,

2018,

the

Government

had

obtained

a

Superseding Indictment. This was an eight Count Indictment. As to
Defendant Vines, Counts One and Two had remained the same. However,
a new Count Three had charged Conspiracy to Commit Sex Trafficking
of a Minor, that between September 10, 2016 and on or about October
6, 2016, within the Southern District of Indiana and elsewhere,
Defendant did conspire with another person to violate 18 U.S.C
1591, that is, the Defendant did agree with at least one other
person to, in and affecting interstate commerce, knowingly recruit
entice, harbor, transport, provide obtain, advertise, maintain,
patronize, and solicit, by any means, Minor Victim 1, knowing and
in reckless disregard of the fact that Minor Victim 1 had not
attained the age of 18 years and that Minor Victim 1 would be
11

caused to engage in a commercial sex act, in violation of 18 U.S.C.
1594c and 1591; the original Counts Three and Four now became
Counts Four and Five; and added Count Eight, Tampering with a
Witness, in that on or about July 16, 2017, the Defendant did
attempt to corruptly alter, destroy, mutilate and conceal a record,
document, or other object, with the intent to impair the object’s
integrity or availability for use in an official proceeding, that
is the Defendant did direct an individual to access his cell phone
and to delete information from that cell phone, after the Defendant
had been arrested for the offense of Sex Trafficking of a Minor, in
furtherance

of

that

attempt,

the

Defendant

took

one

or

more

substantial steps, in violation of 18 U.S.C. 1512c(1).
Defendant had filed a Pretrial Motion to Suppress all Evidence
Obtained from his Iphone, with attachments. By this Suppression
Motion, he sought, an eventual ruling that law enforcement had
violated his Fourth Amendment rights against unreasonable searches
and seizures. He had indicated that law enforcement had illegally
obtained his cell phone from his girlfriend, SS, who did not have
either actual or apparent authority to provide the phone. He had
moved for the suppression of evidence derived from this illegal
search. This suppression included the subsequent search of his
telephone, notwithstanding a subsequent search warrant to search
this phone. The Motion had contained the Search Warrant with
respect to the telephone, and a proposed Order.
Defendant had indicated in the Motion to Suppress his Iphone
Evidence that he had been taken into custody July 14, 2017 while at
12

a state court hearing. After that hearing, a law enforcement
officer had met SS at an elevator, and had provided her with Vines’
phone, watch,

and

wallet.

On

August

12,

2017,

Special

Agent

Bartelson and FBI Task Officer Cuevas had called SS and had
requested to meet and interview her. The officers had wanted to
meet that day, but SS had indicated that she had wanted to meet
next week. They scheduled a meeting for the following week at a
downtown location. Despite the appointment, the officers, without
calling SS back, arrived at her apartment that day. They had showed
their badges and then asked to come in. After about forty five
minutes of questioning, the officers had asked her if she still had
Vines’ cell phone and if she would provide it to them. The officers
then advised that if she did not provide the phone, they would
return with a search warrant. She provided the phone. At that time,
the phone was off, she had not been using the phone, and she did
not know the password to access the phone. From the conversation,
the police knew that this was Vines’ phone. The officers never
contacted Vines or his counsel for permission to seize the phone.
The officers did not obtain a search warrant to seize the phone.
Later, law enforcement obtained a search warrant for the phone.
They did not disclose that when they seized the phone from SS that
the phone was password protected and that she did not know the
password.
Further, as Defendant had indicated in his Reply to the
State’s Response to the Iphone Suppression Motion, SS had told law
enforcement that, not only did she not have the password to the
13

Iphone, but that, if she entered the wrong password two more times,
that the

phone

would

be

wiped

out

of

all

of

its

data.

Law

enforcement did not put this information into its Search Warrant.
The trial court conducted a status conference on October 30,
2018. At that conference, the parties and the trial court discussed
discussed the Motion to Suppress Iphone Evidence. Defendant had
argued that because the initial seizure had been illegal, then the
resulting search warrant of the phone had also been illegal as
fruit of the poisonous tree. Defendant had indicated that the
seizure of the phone had been illegal. This, because SS did not
have the passcode to access the phone. The pass code is what should
be the measure of authority to access the phone, and that is the
authority

to

provide

the

authority

to

be

able

to

seize

it.

Defendant had indicated that, without providing the pass code
information so as to access the phone, the phone is essentially a
paper weight. This, due to resulting technology.
Defendant had also indicated to the court on October 30, 2018
that, with respect to the search warrant for the Iphone, the
affidavit did not indicate that SS, who provided the phone, did not
have access to the phone because she did not have the passcode.
This information being omitted was crucial to a determination of
whether or not the phone had been seized legally, and if so,
whether the phone had been validly obtained. Defendant had his
phone password protected, he did not want SS to access the phone.
There had been multiple jail calls where she’s asking for the
passcode because she wants to go through his phone. He was saying
14

no.

This

information

was

present

in

the

Government’s

mind.

However, on October 31, 2018, the District Court issued an Order
denying this Defendant’s Suppression Motion. (A 21-25).
Subsequently, on December 21, 2018, Defendant submitted a
Motion in Limine. By this Motion, he had sought that the proposed
testimony of Agent James Hardie be limited. The Government had
sought admission of this testimony. Defendant indicated that the
Agents

should

not

be

allowed

to

testify

regarding

witness

credibility, slang that is within jury’s knowledge, and any other
area to which they are not more familiar with the topics than
others. The Motion in Limine had indicated that these witnesses
would be expected to testify that “...victims of sex trafficking
may

not

be

completely

forthcoming

when

questioned

by

law

enforcement or medical personnel.” Defendant had indicated that
such testimony would relate to one witness would then be testifying
as

to

the

credibility

of

another

witness,

which

is

illegal.

Defendant had indicated that the credibility of the alleged victim,
GMC, would be a central element in his trial. Defendant had
indicated that Agents Hardie or Bartelson may not testify as to why
a trafficking victim or other individual may not be truthful. Such
testimony is illegal and unduly influences the jury. Defendant had
provided supporting case law that witnesses could not testify as to
the credibility of other witnesses.
A Final Pretrial conference occurred on January 4, 2019. At
that time, the District Court and the parties discussed Defendant’s
Motion in Limine Concerning Agents Hardie and Bartelson. Defendant
15

had indicated that it was inappropriate credibility boostering by
the Government to have these expert witnesses say “they lied and
here is why.” The expert testimony would give undue weight to GMC’s
testimony

as

to

why

she

had

lied.

Defendant

argued

that

a

Government provided case had even indicated that such testimony was
questionable and has the potential to be prejudicial and displace
the testimony of the victims. According to this case, such expert
testimony should be limited only to issues of recruitment and
control. (DN 303 at 46-47). Defendant indicated that the experts
should not be allowed to testify and speculate on why victims lie.
(DN 303 at 48). Defendant had indicated that the case law had ruled
that an

expert

witness

may

not

comment

on

another

witness’s

credibility. Such a field is for the jury’s determination. Hardie
was a blind expert who had never interviewed GMC. This testimony
would be just speculative general based behavior. The Government
had indicated that Hardie would testify as to alleged reasons why
people

who

have

information

from

experienced
law

sex

enforcement,

trafficking
or

might

may

have

withhold
difficulty

remembering things. (DN 303 at 50-51). At that time, Defendant had
indicated that for such experts to testify as to whey victims lie,
even without saying that is why Minor Victim 1 lied, would be
inappropriate for the expert, and the jury would put too much
weight on it.
On January 4, 2019, the District court denied Defendant’s
Motion

in

Limine

concerning

the

Bartelson’s testimony. (A 26-36).
16

admission

of

Hardie’s

and

Jury trial testimony commenced on January 23, 2019. At that
time, GMC had testified for the Government. Defendant had crossexamined her extensively about her prior lies and inconsistent
statements. Such lies included her age. She had lied about her
identification of the Defendant as having been Deacon. This, due to
her material lies and inconsistencies about the descriptions.
Further, she had also identified someone else as Deacon. Also,
there

had

been

thorough

and

length

cross-examination

about

disclosure issues. This, in order to attack her credibility.
On January 24, 2019, Jennifer Barnes had testified for the
Government. She testified as an expert on digital media forensics.
She had testified that she had conducted an extraction of an
Iphone,

brought

to

her

by

Gabe

Cuevas.

She

had

uncovered

inculpatory information on that phone, to include various images.
One was a screen capture image entitled “Hey, E, it Gabby.” This
had been part of a stream of text messages. Gabby is the first name
of GMC. Barnes also discussed the Apple account associated with the
phone. The emails related to this account’s email address had dated
back as far as September, 2014. The phone also been used to access
the website backpage.com. A backpage account had actually been
accessed. The Apple account had also been used to manage this
backpage account. There had been wifi logins associated with
motels. This was Defendant’s Iphone.
On January 24, 2019, Agent James Hardie testified for the
Government. He testified that he had joined the FBI in 2001. He had
also testified that he had obtained a master’s of science degree in
17

criminal justice with an emphasis on forensic psychology in 2017.
He began working on sex trafficking cases in 2008. At that time, he
had been selected to be the coordinator of the Initiative that
focused on domestic minor sex trafficking. He was responsible for
that task force. He directed the investigations, coordinated the
sting operations, and served as the primary investigator for a lot
of the investigated cases, and served as case agent for the cases
that had proceeded to trial. He interviewed hundreds of individuals
who had been involved in some aspect of prostitution. He trained
numerous law enforcement officials. He had been qualified multiple
times as an expert in sex trafficking in various courts. As an
expert, he had been permitted to express opinions on the targeting,
recruitment, grooming, and controlling of sex trafficking victims.
He had studied child victims of sex trafficking since 2008. The
Government offered him as an expert in sex trafficking matters.
Defendant again entered his Objection to this witness testifying as
to whether or not victims are forthcoming and to tell the truth. In
response, the District Court indicated that Hardie could not
testify as to the credibility of any one witness, but generally.
(A37). This, even though, by his own testimony, he had never been
permitted to testify as to credibility of sex trafficking victims,
even

generally.

His

prior

testimony

had

never

included

such

credibility testimony.
Agent Hardie testified that victims commonly lie about their
age to law enforcement, to other girls in the stable, and during
the trafficking itself. Hardie also testified that victims often
18

experience confusion about the details that they were providing.
When it comes to disclosures, one would not expect to get the
truth, the whole truth, and nothing but the truth during the first,
second or

even

the

third

interview.

An

interviewer

will

get

minimization. They sometimes lie to the police about whether or not
they keep the money that they earn. More often, they do not report
their traffickers to the police.
AD testified for the Government. She testified that she
prostituted along with GMC. AD testified that GMC told her that she
was twenty one. AD knew her as Monique. GMC never told AD that her
real name was Gabby and not Monique.
Agent Michelle Bartelson testified for the Government. She
testified that she served a search warrant on Apple for Defendant’s
Icloud account. There were images recovered from that account.
There was a backpage email sent to Defendant’s Icloud account.
There were prostitution backpage post ids. There were some for AD.
There were emails referencing a backpage ad involving GMC, with her
picture. She also discussed images of women that had appeared in
Defendant’s

Facebook

account.

There

had

been

other

Facebook

exhibits from Defendant’s account. In a nutshell, Bartelson had
testified extensively about material and evidence obtained from
Defendant’s Iphone.
During his defense case, Defendant presented the testimony of
Maxine Hall. She was GMC’s foster mother during 2016. She testified
as to factual reasons why she had believed that GMC was not
truthful. GMC would lie about possessing other foster kids’ cell
19

phones. She would stick with a lie. She was not a truthful person
generally.
The jury eventually reached verdicts of guilty as to Counts
One through Five of the Superseding Indictment. However, the jury
reached a verdict of Not Guilty as to Count Eight.
The sentencing hearing occurred on June 27, 2019. The District
Court sentenced Defendant to forty years on each of Counts One
through Four, to be served concurrently, and sixty months on Count
Five,

also

to

be

served

concurrently.

The

Court

imposed

a

supervised period upon release of life for Counts One through Four,
concurrently, and three years on Count Five, also concurrent.
Defendant filed his Notice of Appeal on July 11, 2019.
In a panel decision dated August 13, 2021, the Seventh Circuit
affirmed the District Court’s Judgment of Conviction.

REASONS FOR GRANTING THE PETITION

I. CONFLICTS REGARDING THE APPROPRIATE STANDARD FOR
DETERMINING A THIRD PARTY’S APPARENT AUTHORITY TO CONSENT
TO THE SEIZURE OF ANOTHER’S PASSWORD PROTECTED CELL
PHONE, WHEN THE OWNER OF THAT PHONE HAS AFFIRMATIVELY
DENIED THAT PASSWORD INFORMATION TO THAT THIRD PARTY,
AND LAW ENFORCEMENT ARE AWARE OF THIS DENIAL AT THE
TIME OF SEIZURE, ARE TO BE RESOLVED BY THIS SUPREME
COURT.
The Seventh Circuit’s Decision in this Present Case is in
Conflict with Holdings of Other Circuits.
Here,

the

Seventh

Circuit

Decision

had

indicated

that

Defendant had not limited SS’s access to his Iphone in any way. The
20

Seventh Circuit had cited U.S. vs. James, 571 F.3d 707 (7th Cir.
2009) for this ruling. The Panel had discussed this case, and had
then indicated that Defendant had not limited SS’s access to his
Iphone in any way. However, contrary to the Seventh Circuit and its
Decision, had not even considered that Defendant had password
protected his Iphone, and had adamantly denied SS this password
information.

He

had

denied

her

this

information

on

multiple

occasions, such as on inmate jail calls that law enforcement had
been aware of. Here, SS did not have either actual or apparent
authority to allow the police to seize Defendant’s Iphone. The
Iphone had been password protected. She did not have that password.
So, as Defendant had indicated to the District Court, that Iphone
had been essentially a paper weight with respect to her authority
over it. Further, she had attempted to obtain the password from the
Defendant while he was in custody. However, he had refused to give
it to her. Further, even after this refusal, she knew that if she
had even tried to enter a guess password into the Iphone, the phone
would delete all material after two failed tries. Clearly, she did
not have the authority to consent to any search/seizure of that
Iphone. Also, law enforcement had known, at the time of the
seizure, that Defendant had not provided SS any authority to
consent to that seizure. Vines had maintained his legitimate
expectation of privacy with respect to that Iphone.
Here, the Seventh Circuit had relied upon James. However, two
other Circuits have discussed the relevance of password protection,
and the

refusal

to

reveal

the
21

password

information

to

third

parties, with respect to computers. The Fourth and Tenth Circuits
have concluded that, in such situations, an individual does not
have

consent

to

either

the

search,

or

the

seizure,

of

that

computer. The Tenth Circuit case is U.S. vs. Andrus, 483 F.3d 711
(10th Cir. 2007). The Fourth Circuit cases are Trulock vs. Freeh,
275 F.3d 391 (4th Cir. 2001) and U.S. vs. Buckner, 473 F.3d 551 (4th
Cir. 2007). Both of these Circuits had compared the situation to
that

of

a

locked

footlocker/suitcase/briefcase.

Andrus

had

discussed this matter in terms of a locked footlocker. Buckner and
Trulock

had

discussed

this

matter

in

terms

of

locked

suitcase/briefcase. The rule of authority to consent has to be one
of reason that assesses the critical circumstances indicating the
presence or absence of a discrete expectation of privacy with
respect to the particular object. These Circuits had indicated
that, by using a password, individuals affirmatively intend to
exclude others from their personal files. Those individuals also,
because they conceal their passwords from others, cannot be said to
assume

the

risk

that

third

parties

would

permit

others

to

seize/search those files. Those individuals have a legitimate
expectation
computers

of

are

privacy

in

repositories

password
for

protected

private

files.

information

Further,
that

the

computer’s owner does not intend to share with others. A password
is identical to a lock on a footlocker/briefcase/suitcase. A
physically locked footlocker conveys a subjective expectation of
privacy. Third party consent in such items must be examined in the
officers’ knowledge about password protection as an indication of
22

whether a computer is “locked” in the way that a footlocker would
be. U.S. vs. Andrus, 483 F.3d 711 at 718; U.S. vs. Buckner, 473
F.3d 551 at 554; Trulock vs. Freeh, 275 F.3d 391 at 403.
Based upon the foregoing, there is a clear conflict among the
Circuits as to the appropriate standard for password protected
items. Here, there is no reason why Defendant’s password protected
Iphone must have any different analysis with respect to third party
consent than computers. Clearly, Iphones, and cell phones in
general, are the repository of private information. Such phones,
such as Vines’ IPhone, are often password protected. Such phones
allow the owners of those phones to input passwords, such as in
computers. Clearly, such passwords are designed to limit access to
the information on the phones. This, to either the owner of the
phone, or to some third party that the owner has determined should
have such access. Accordingly, this present situation should be
treated identically to that of a password protected computer.
Hence, in the present situation, the Circuits are in material
conflict concerning this standard of third party consent as to
password protected phones. Clearly, the Seventh Circuit ruling in
its Decision in this matter conflicts with that of both the Fourth
and Tenth Circuits. Hence, multiple Circuits disagree with the
Seventy Circuit’s Decision. The Seventh Circuit is in dispute with
the Fourth and Tenth Circuits.
Based upon the clear conflict among the Circuits as to the
appropriate standard for a finding of third party authority to
consent to seizure of a password protected phone when the owner of
23

that phone has clearly refused to provide that password information
to that third party, Petitioner respectfully requests that the
United States Supreme Court resolve this conflict by determining
what is the appropriate standard for such a situation.

II.
CONFLICTS FOR DETERMINING WHEN AN EXPERT CAN TESTIFY
AS TO THE CREDIBILITY OF A CLEARLY DETERMINED AND IDENTIFIED
SEX TRAFFICKING/ABUSE VICTIM WITNESS, ARE TO BE DETERMINED
BY THIS SUPREME COURT.
The Seventh Circuit’s Decision in this Present Case is in
Conflict with Holdings of Other Circuits.
Here, Special Agent James Hardie had essentially told the jury
that GMC’s lies should not be part of its credibility determination
and that the jury should believe her testimony anyway. Hardie told
the jury that it should believe her trial story. Legally and
factually, he had negated her massive credibility issues. However,
her testimony had shown that she was a liar. She had provided
multiple stories at various times. Her various statements to the
police had involved multiple inconsistencies and lies. She had lied
to the police on multiple occasions, to include her arrest in Ohio.
She had lied to others, such as AD and GMC’s foster mother. Her
testimony had been attacked by the Defendant, and had been open to
serious question.
The Seventh Circuit has indicated in its recent Decision in
this matter that this expert on sex trafficking, Hardie, could
testify

that

victims

of

such

trafficking

often

lie

to

law

enforcement. The Seventh Circuit had indicated that this expert
24

could testify as to the credibility of victims of sex trafficking.
The Seventh Circuit had found admissible that his testimony that
victims would often be unwilling to disclose all details from the
start. True, the Seventh Circuit had indicated that the trial court
had not allowed Hardie to testify as to the specific victim
involved in this matter. However, contrary to the Seventh Circuit,
as discussed, there had only been one sex trafficking victim
involved

in

this

case.

Hardie’s

testimony,

contrary

to

the

Decision, had clearly referred to her. Any reasonable jury would so
conclude. There is no reasonable inference to the contrary. Hence,
Hardie’s testimony had clearly been provided to materially bolster
her testimony and to inform the jury that it should disregard her
history of lying and solely believe her in court testimony.
Here, GMC’s credibility had been crucial to the Government’s
case. She was the named victim in the Counts. Her credibility had
been the central element at the trial. This, as to what the
Defendant had done to her. Further, Hardie’s testimony had also
negated the testimony of Maxine Hall. Hardie’s testimony had simply
told the jury to disbelieve GMC’s lies, Hall’s testimony, and
solely

believe

GMC’s

testimony

and

statements

that

had

been

inculpatory. Hardie had told the jury to believe the inculpatory
portions

of

GMC’s

testimony

and

statements

and

disbelieve

exculpatory portions. Contrary to the Seventh Circuit’s Decision,
such testimony by Hardie had been illegal and impermissible.
Here, contrary to the Seventh Circuit, the Eighth Circuit has
specifically indicated that credibility determinations are uniquely
25

within the province of the trier of fact, and that one witness
cannot comment as to the credibility of another witness. One such
Eighth Circuit case had indicated that, even under the guise of
“expertise,” an expert on child sex abuse could not testify as to
the credibility of an alleged sex abuse victim. The Government in
that case had argued that this expert could help in assessing the
credibility of a child witness. This, due to the expert’s expertise
in children, and in particular sexually abused children, think and
act. However, the Eighth Circuit had rejected this argument,
calling such testimony as putting “...an impressively qualified
expert’s stamp of truthfulness on a witness’s story.” As indicated
by the Eighth Circuit, putting an impressively expert’s stamp of
truthfulness on a witness’s story goes too far legally. This Eighth
Circuit case had cited case law from other Circuits, such as the
Ninth, Tenth, and Third. U.S. vs. Azure, 801 F.2d 336 (8th Cir.
1986). See also, U.S. vs. Barnard, 490 F.2d 907 (9th Cir. 1973),
cert den. 416 U.S. 959, 40 L.Ed.2d 310, 94 S.Ct. 1976 (1974). In
U.S. vs. Awkard, the Ninth Circuit had indicated that under the
Federal Rules of Evidence, opinion testimony on credibility is
limited to character; all other opinions on credibility are for the
jurors themselves to form. U.S. vs. Awkard, 597 F.2d 667, 671 (9th
Cir. 1979), cert. den., 444 U.S. 885, 62 L.Ed.2d 116, 100 S.Ct. 179
and 444 U.S. 969, 100 S.Ct. 460, 62 L.Ed.2d 383 (1979). An expert
may not go so far as to usurp the exclusive function of the jury to
weigh the evidence and determine credibility. U.S. vs. Samara, 643
F.2d 701 (10th Cir. 1981), cert. den. 454 U.S. 829, 70 L.Ed.2d 104,
26

102 S.Ct. 122 (1981); U.S. vs. Ward, 169 F.2d 460 (3rd Cir. 1948).
See also U.S. vs. Geddes, 844 F.3d 983 (8th Cir. 2017).
Here, contrary to the Seventh Circuit’s Decision, Hardie’s
testimony had illegally crossed the line between simple expert
testimony concerning general modus operandi, and testifying as to
the credibility of the Government’s critical witness under the
guise of expertise. As the Eighth Circuit had indicated in Azure,
putting an impressively qualified expert’s stamp of truthfulness on
a witness’s story goes too far legally. As discussed, GMC, the
victim, was the Government’s key witness, and her credibility had
been critically important. Because her testimony had been likely
bolstered by Hardie’s erroneously admitted “expert” believability
opinion, the error was not harmless. Further, because the error had
substantial influence upon the credibility of the key witness, and
the importance of that witness to the Government’s case, the error
was not harmless. U.S. vs. Azure, 801 F.2d 336 at 341.
Further, contrary to the Panel, Hardie should not have been
allowed to testify as to GMC’s credibility, even in a “general
sense.” Each witness must be evaluated individually. There had not
been

any

indication

that

GMC

had

the

same

traits

and

characteristics of “other sex trafficking victims.” Her testimony
should have been evaluated on its own. This, exclusive of Hardie
telling the jury that, due to her status as a sex trafficking
victim, her prior history of lying should not have any bearing on
her credibility. As indicated in the cited case law, a jury can
evaluate her credibility.
27

Accordingly, in the present situation, the Circuits are in
conflict concerning the standard of an expert witness testifying as
to the credibility of other witnesses. This, even in the context of
alleged “general” testimony. As argued herein, any discussion by
the Seventh Circuit that Hardie’s testimony had been “general,” and
not specific, had been a sham. Hardie’s testimony had discussed the
credibility of sex trafficking victims. Here, there had only been
one such victim. Hence, and clearly, the Seventh Circuit ruling in
its Decision in this matter conflicts with that of the other cited
other Circuits. Hence, multiple other Circuits disagree, and are in
conflict, with the Decision.
Based upon the clear conflict among the Circuits as to the
appropriate standard for an expert to testify as to the credibility
of a child sex trafficking victim, even under the guise of “general
testimony” when such testimony clearly refers to another specific
witness, Petitioner respectfully requests that the United States
Supreme Court resolve this conflict by determining what is the
appropriate standard for such a situation.

CONCLUSION

For the foregoing reasons, a Writ of Certiorari should issue
to review the decision and opinion of the Court of Appeals for the
Seventh Circuit.

28

RESPECTFULLY SUBMITTED, at Waukesha, Wisconsin, this
day of September, 2021.
Attorney for Elijah Vines
Mark S. Rosen
Wis. State Bar No. 1019297
Rosen and Holzman
400 W. Moreland Blvd., Ste. C
Waukesha, WI 53188
ATTN: Mark S. Rosen
(262) 544-5804
email:roseholz@sbcglobal.net

29

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2021

ELIJAH VINES,
Petitioner,
vs.
UNITED STATES,
Respondent.

CERTIFICATION FOR THE PETITION FOR WRIT OF CERTIORARI
FOR THE PETITIONER ELIJAH VINES

The attached Petition for Writ of Certiorari complies with all
page and Petition requirements of Federal Rules of Supreme Court
Procedure Rules 13, 14, 33, and 34.

Mark S. Rosen
Attorney for

Petitioner

TABLE OF CONTENTS TO APPENDIX
Page
1. Decision and Order of Seventh Circuit...............A 1-20
2. District Court’s Written Decision Denying Defendant’s
Motion to Suppress Evidence Obtained from his
Iphone............................................A 21-25
3. District Court’s Oral Decision Denying Defendant’s
Motion in Limine Pertaining to the Testimony of
Hardie.............................................A 26-36
4. January 24, 2019 Oral Ruling as to Admissibility of
Hardie’s Testimony as to Credibility...............A 37

